fl


                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: M01020005                                                                        Page 1 of 1


         On February 26,2001, we received an allegation of verbatim plagiarism. Specifically, it was
         alleged that a computer scientist (Subject-1') submitted an NSF proposal2 containing material
         plagiarized from published sources. The matter was opened for inquiry on February 27,2001.

         In a letter dated August 7,2001, we informed Subject-1 of the allegation. Subject-1 responded
         that she contributed one page of the proposal, and that the remainder was written by an
         international collaborator (Subject-23). In a letter dated October 1,2001, we informed Subject-2
         of the allegation. Subject-2 stated that the relevant section of the proposal was written by a
         student, who admitted to copying the materials. In the further course of our inquiry, we found
         that the proposal was originally submitted by Subject-2 to an international program administered
         by an interagency board under the aegis of the U.S. Department of State4.When this program
         selected NSF as the appropriate agency to review the proposal, Subject-1 (the U.S. collaborator)
         was directed by NSF to reformat the proposal and submit it through FastLane. In mid-December
         we consulted Dept. of State OIG, who requested that we take the lead.

         The matter was opened for investigation on February 12,2002. Because Subject-2's institution is
         a foreign, non-awardee institution, we could not defer our independent investigation. In the
         course of our investigation, we analyzed all sections of the proposal. We found that the
         intellectual content of the proposal resided in four pages, three of which were largely plagiarized.
         We concluded that Subject-2, as the primary author of the original proposal and the putative
         author of the pages in question, bore responsibility for these acts of plagiarism. Because of the
         special circumstances in the case, however, we determined that the most appropriate course of
         action was to focus on preventive measures. Accordingly, we wrote to Subject-2 informing him
         of our conclusions. We emphasized the consequences of research misconduct and requested that
         he send us a statement outlining the actions he will take to resolve this incident.

         We have recommended to Dept. of State and NSF that the solicitation for this program be
         strengthened to include a statement on standards for research proposals, consistent with NSF's
         Grant Proposal Guide. This matter will be pursued in connection with a case involving another
         proposal submitted to this program. This case is closed and no further action will be taken.


         ' [redacted]
           [redacted]
         ' [redacted]
           [redacted]


                            Agent                  Attorney                Supervisor                 AIGI

     Sign / date

                                                                                                      OIG-02-2
